                

               ,  

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 
                




                     EPA Needs to Improve
                     Air Emissions Data for the
                     Oil and Natural Gas
                     Production Sector
                     Report No. 13-P-0161                    February 20, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                 Rick Beusse                   Erica Hauck
                                     Chris Dunlap                  Renee McGhee-Lenart
                                     Kevin Good                    Julie Narimatsu

Abbreviations

AERR            Air Emissions Reporting Requirements
CAA             Clean Air Act
CFR             Code of Federal Regulations
EIA             U.S. Department of Energy’s Energy Information Administration
EPA             U.S. Environmental Protection Agency
ERT             Electronic reporting tool
FTE             Full-time equivalent
FY              Fiscal year
GAO             U.S. Government Accountability Office
GHG             Greenhouse gas
HAP             Hazardous Air Pollutants
NAAQS           National Ambient Air Quality Standards
NATA            National Air Toxics Assessment
NEI             National Emissions Inventory
NESHAP          National Emissions Standards for Hazardous Air Pollutants
NOx             Nitrogen oxides
NSPS            New Source Performance Standards
OAP             Office of Atmospheric Programs
OAQPS           Office of Air Quality Planning and Standards
OAR             Office of Air and Radiation
OIG             Office of Inspector General
ORD             Office of Research and Development
PM2.5           Fine particulate matter
PM10            Inhalable coarse particulate matter
SIP             State implementation plan
VOC             Volatile organic compounds
WebFIRE         Web Factor and Information Retrieval System

Cover photo:	     A natural gas production facility next to a playground and housing
                  development. (EPA photo)


  Hotline 

  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                       write:   EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                                  13-P-0161
                                                                                                        February 20, 2013
                       Office of Inspector General


                       At a Glance

Why We Did This Review            EPA Needs to Improve Air Emissions Data for
We initiated this review to       the Oil and Natural Gas Production Sector
determine whether the U.S.
Environmental Protection           What We Found
Agency (EPA) has the data
needed to make key decisions      High levels of growth in the oil and natural gas (gas) production sector, coupled with
regarding air emissions from      harmful pollutants emitted, have underscored the need for EPA to gain a better
oil and natural gas production.   understanding of emissions and potential risks from the production of oil and gas.
Key decisions include the         However, EPA has limited directly-measured air emissions data for air toxics and
need for regulations,             criteria pollutants for several important oil and gas production processes and
enforcement and permitting        sources, including well completions and evaporative ponds. Also, EPA does not
decisions, and risk               have a comprehensive strategy for improving air emissions data for the oil and gas
assessment, among others.         production sector; the Agency did not anticipate the tremendous growth of the
Gas production in the United      sector, and previously only allocated limited resources to the issue.
States has grown significantly
in recent years. Between 1992     In addition to their use in making a variety of key decisions, EPA uses air emissions
and 2010, about 210,000 new       data to develop emission factors. These are representative values that relate the
gas wells were drilled. The       quantity of a pollutant released with an activity associated with its release. States
U.S. Department of Energy         use EPA’s emission factors to develop emission inventories, issue permits for
projects that onshore crude oil   facilities, and take enforcement actions. Limitations in EPA’s air emissions data for a
and natural gas production will   number of oil and gas production pollutants have contributed to emission factors of
increase 30 and 18 percent,       questionable quality. About half of EPA’s Web Factor and Information Retrieval
respectively, from 2009 to        System oil and gas production emission factors are rated below average or unrated
2025. The oil and gas             because they are based on insufficient or low quality data.
production sector and its
various production processes      EPA uses its National Emissions Inventory (NEI) to assess risks, track trends, and
emit large amounts of harmful     analyze envisioned regulatory controls. However, oil and gas production emissions
pollutants that impact air        data in the 2008 NEI are incomplete for a number of key air pollutants. For example,
quality on local, regional, and   only nine states submitted criteria pollutant emissions data for small stationary
global levels.                    sources. Because so few states submitted data for this sector, we believe the NEI
                                  likely underestimates oil and gas emissions. This hampers EPA’s ability to
This report addresses the         accurately assess risks and air quality impacts from oil and gas production activities.
following EPA Goal or
Cross-Cutting Strategy:            Recommendations and Planned Agency Corrective Actions

 Taking action on climate        We recommend that EPA develop and implement a comprehensive strategy for
  change and improving air        improving air emissions data for the oil and gas production sector, prioritize which oil
  quality.                        and gas production emission factors need to be improved, develop additional
                                  emission factors as appropriate, and ensure the NEI data for this industry sector are
                                  complete. EPA concurred with our recommendations to develop a comprehensive
For further information,          strategy, improve and prioritize emission factors, and develop default nonpoint
contact our Office of             emission estimates. The Agency did not concur with our recommendations to ensure
Congressional and Public          that states submit required data and develop default calculation guidance. These
Affairs at (202) 566-2391.        recommendations are unresolved pending the Agency’s final report response.

The full report is at:             Noteworthy Achievements
www.epa.gov/oig/reports/2013/
20130220-13-P-0161.pdf            EPA is conducting field studies to develop new methods to measure emissions and
                                  investing in a new Emissions Inventory System.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460



                                                                                THE INSPECTOR GENERAL



                                        February 20, 2013

MEMORANDUM

SUBJECT:	 EPA Needs to Improve Air Emissions Data for the Oil and
          Natural Gas Production Sector
          Report No. 13-P-0161


FROM:          Arthur A. Elkins, Jr.

TO:            Gina McCarthy
               Assistant Administrator for Air and Radiation

               Lek Kadeli
               Acting Assistant Administrator for Research and Development


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. The Agency
disagreed with two of our recommendations, which are unresolved pending the Agency’s final
report response. This report represents the opinion of the OIG and does not necessarily represent
the final EPA position. Final determinations on matters in this report will be made by EPA
managers in accordance with established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 60 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want to be released to the public; if your response contains such data, you should identify the
data for redaction or removal. Please e-mail your response to Carolyn Copper, Assistant
Inspector General for Program Evaluation, at copper.carolyn@epa.gov. We have no objections to
the further release of this report to the public. We will post this report to our website at
http://www.epa.gov/oig.
If you or your staff have any questions regarding this report, please contact Carolyn Copper at
(202) 566-0829 or copper.carolyn@epa.gov; or Rick Beusse, Director for Air and Research
Evaluations, at (919) 541-5747 or beusse.rick@epa.gov.
EPA Needs to Improve Air Emissions Data                                                                                      13-P-0161
for the Oil and Natural Gas Production Sector


                                   Table of Contents

Chapters
   1     Introduction ........................................................................................................      1


                 Purpose .......................................................................................................    1     

                 Background .................................................................................................       1     

                 Noteworthy Achievements ...........................................................................                7     

                 Scope and Methodology..............................................................................                8


   2	    Limited Air Emissions Data for Oil and Gas Production 

         Hampers EPA’s Ability to Assess Airborne Risks ..........................................                                 10


                 EPA Has Limited Air Emissions Data for Several Key Oil and
                       Gas Production Processes and Sources ...........................................                            10 

                 EPA Lacks Data to Develop and Improve Emission Factors
                       Impacting Key Decisions for Many Oil and Gas Processes ..............                                       12 

                 Oil and Gas Production Emissions Data in EPA’s NEI Are Incomplete.......                                          16 

                 Limited Data Could Affect Decision-Making Impacting Human Health
                       and the Environment .........................................................................               20 

                 Conclusions .................................................................................................     20     

                 Recommendations ......................................................................................            21     

                 Agency Comments and OIG Evaluation ......................................................                         22 


   Status of Recommendations and Potential Monetary Benefits..............................                                         23




Appendices
   A     Agency Comments on Draft Report .................................................................                         24


   B     OIG Evaluation of Agency Comments..............................................................                           28


   C     Growth in Oil and Gas Production Industry ...................................................                             30


   D     Final Revised 2012 NSPS and NESHAP Rules ...............................................                                  32


   E     Descriptions of Equipment and Processes for Oil and Gas Production .....                                                  34 


   F     Distribution .........................................................................................................    36

                                             Chapter 1

                                             Introduction
Purpose
                  We conducted this evaluation to determine whether the U.S. Environmental
                  Protection Agency (EPA) has the data needed to make key decisions regarding
                  air emissions from oil and natural gas (gas) production activities. These decisions
                  include establishing regulations, determining applicability of sources to
                  regulations, permitting facilities, evaluating the adequacy and cost-effectiveness
                  of regulatory controls, assessing residual risks from facilities,1 evaluating State
                  Implementation Plans (SIPs),2 and taking enforcement actions.

Background
                  Industry Growth
                  Gas production in the United States has grown significantly in recent years. From
                  1992 to 2010,3 the number of producing gas wells increased by 76 percent.
                  Onshore gross withdrawals of gas increased by about 43 percent. About 11,000
                  new wells were drilled annually from 1992 to 2010, on average. According to a
                  2011 EPA fact sheet,4 the United States had nearly 1.1 million producing oil and
                  gas wells in 2009. Growth in gas production has been particularly significant in
                  areas covered by EPA Regions 3, 6, and 8. For example, in Region 8, the number
                  of gas wells increased by 416 percent and gross withdrawals increased by 163
                  percent between 1992 and 2010.

                  Unlike gas production, onshore production of crude oil decreased from
                  2.28 billion barrels in 1992 to 1.4 billion barrels in 2010, but is expected to
                  increase in future years. The U.S. Department of Energy’s Energy Information
                  Administration (EIA)5 projects that both onshore crude oil and gas production
                  will increase by 30 percent and 18 percent, respectively, between 2009 and 2025.
                  In addition, the EIA projects that about 39,000 new gas wells will be drilled per
1
  Comprehensive risk assessments involve a number of activities and types of information beyond emissions data, 

including dispersion modeling, human exposure assessments, and dose-response relationships. We focused only on

oil and gas production emissions data. We did not evaluate the limitations or uncertainties associated with the other 

types of information used in comprehensive risk assessments.

2
  A SIP is a state’s blueprint for how it will attain and/or maintain the National Ambient Air Quality Standards. It 

contains the state’s proposed control measures and strategies, subject to EPA review and approval. 

3
  2010 was the most recent year for which data were available at the time we conducted our analysis.

4
  EPA Fact Sheet, Proposed Amendments to Air Regulations for the Oil and Natural Gas Industry, July 2011. 

5
  EIA collects, analyzes, and disseminates independent and impartial energy information to promote sound 

policymaking, efficient markets, and public understanding of energy and its interaction with the economy and the 

environment. By law, EIA’s data, analyses, and forecasts are independent of approval by any other officer or 

employee of the U.S. Government. Source: http://www.eia.gov/about/mission_overview.cfm. 



13-P-0161                                                                                                            1
               year during the same period. Appendix C provides more details on the growth in
               oil and gas production.

               Oil and Gas Processes and Sources of Airborne Emissions
               The oil and natural gas sector includes operations involved in the extraction and
               production of oil and natural gas, as well as the processing, transmission, and
               distribution of natural gas. Specifically for oil, the sector includes all operations
               from the well to the point of custody transfer at a petroleum refinery. For natural
               gas, the sector includes all operations from the well to the customer.

               Our evaluation focused on activities associated with onshore oil and gas
               production. Production involves the extraction of oil and gas from underground
               formations and the initial separation of crude oil and gas from other components
               in the hydrocarbon stream coming from the ground. These activities are
               commonly referred to as upstream activities.

               As shown in table 1, the sources of airborne emissions from oil and gas
               production (upstream) activities can be broken down into three major categories.
      Table 1: Source categories of airborne emissions from upstream activities
        Category           Type of emissions                 Sources of emissions
       Combustion       Nitrogen oxides (NOx)a,b and carbon     Engines, heaters, flares, incinerators, and
       sources          monoxide resulting from the burning     turbines.
                        of hydrocarbon (fossil) fuels.
                        Air toxics, particulate matter (PM),
                        uncombusted volatile organic
                        compounds, and methane are also
                        emitted.
       Vented           Volatile organic compounds              Pneumatic devices, dehydration processes,
       sources          (VOCs)a,b, air toxics, and methane      gas sweetening processes, chemical
                        resulting from direct releases to the   injection pumps, compressors, tanks, and
                        atmosphere.                             well testing, completions, and workovers. 
       Fugitive         VOCsa,b, air toxics, and methane       Equipment leaks through valves,
       sources          resulting from uncontrolled and        connectors, flanges, compressor seals, and
                        under-controlled emissions.            related equipment and evaporative sources
                                                               including wastewater treatment, pits, and
                                                               impoundments.
      Source: Office of Inspector General (OIG)-developed table from the American Petroleum Institute’s
      Compendium of Greenhouse Gas Emissions Estimation Methodologies for the Oil and Gas Industry, 2009
      and selected other sources.
      a
        Fine particulate matter (PM2.5) emissions can be created by secondary formation due to chemical reaction
      in the atmosphere from precursor emissions such as NOx and VOCs.
      b
        Ozone emissions can be created by secondary formation due to photochemical reactions in the
      atmosphere from precursor emissions such as NOx and VOCs. Winter ozone exceedances in western
      states have been linked to oil and gas drilling.


               Pollutants Emitted and Associated Health Risks

               Oil and gas production processes and sources emit large amounts of harmful
               pollutants that can impact air quality globally, regionally, and locally. Table 2



13-P-0161                                                                                                          2
                   describes the health impacts of some significant pollutants emitted from the oil
                   and gas production sector.  
Table 2: Health impacts of significant pollutants emitted from upstream oil and gas production
activities
    Pollutant(s)                                            Health impacts

 Greenhouse            Potential health impacts related to climate change will vary, but threats include increased
 gases (methane/       incidence of serious infectious disease, extreme temperatures that lead directly to loss of
 carbon dioxide)       life, and warmer temperatures that can increase air and water pollution and result in
                       human health impacts.
 NOx and VOCs,         Health impacts may include reduction of lung function, inflammation of airways,
 which contribute      aggravation of asthma, increased susceptibility to respiratory illnesses (e.g., pneumonia
 to ground-level       and bronchitis) and premature death. Vulnerable populations (e.g., people with lung
 ozone                 disease, children, and the elderly) are especially at risk.
 Fine particulate      Health impacts may include worsening of lung function, asthma attacks, bronchitis,
 matter (PM 2.5)       increased susceptibility to respiratory infections, and premature death.
 Air toxics            Health impacts from short-term exposure may include skin and sensory irritation, central
 including             nervous system problems, and respiratory problems. Health impacts from long-term
 benzene,              exposure may include problems with kidney, liver, and blood systems. For example,
 toluene,              benzene is a human carcinogen and health impacts from short-term exposure may
 ethylbenzene,         include drowsiness, dizziness, headaches, and irritation of the eyes, skin, and respiratory
 and xylenes           tract. Long-term exposure has been linked to various blood disorders, reproductive
                       effects, and increased incidence of leukemia.

 Source: OIG-developed table.

                   Methods for Quantifying Emissions
                   Quantifying air emissions is important to achieving effective control and
                   oversight of sources of air emissions. Several methods exist for quantifying
                   emissions, including direct measurement of sources and estimation techniques
                   such as emission factors and engineering calculations:
                      	 Direct measurement involves measuring actual emissions and collecting
                         empirical or directly-measured data from a source or process.

                      	 Emission factors are representative values that relate the quantity of a
                         pollutant released to the atmosphere with an activity associated with the
                         release of that pollutant. EPA and states use emission factors to produce
                         emission estimates for specific sources or processes at a facility.

                      	 Engineering calculations refer to the estimation of emissions using
                         engineering parameters.

                   EPA’s Emissions Inventories

                   Emissions inventories identify, by source, the air pollutant emissions in a specific
                   geographic area for a specific time interval. EPA and states use emissions
                   inventories to evaluate air pollution problems and assess the effectiveness of air
                   pollution policy. Inventories represent an estimate of total emissions and are
                   based to a large extent on data derived from emission factors. EPA has two



13-P-0161                                                                                                            3
                 primary emissions inventories that reflect emissions from oil and gas production:
                 the National Emissions Inventory (NEI) and the Inventory of U.S. Greenhouse
                 Gas (GHG) Emissions and Sinks (known as the GHG Inventory):

                     	 EPA’s NEI is a nationwide inventory containing detailed estimates of both
                        criteria6 and toxic air emissions from all sources of air emissions. The NEI
                        is based primarily on emissions data submitted by state, local, and tribal
                        air pollution control agencies. The NEI is compiled every 3 years, with the
                        most recent inventory representing emissions in 2008. EPA uses the NEI
                        for a variety of purposes, including developing regulations, modeling
                        efforts to support rulemakings, characterizing risks from air toxic
                        emissions, and assessing emission trends over time. The environmental
                        staff from one state said that they use the NEI for modeling efforts to
                        support their SIP proposal process.7

                     	   For GHGs, EPA annually prepares the national GHG Inventory Report,
                          which provides estimates of the amount of domestic GHGs emitted into
                          and removed from the atmosphere. Primarily, the GHG Inventory Report
                          fulfills the United States’ commitment to the United Nations Framework
                          Convention on Climate Change (1992), which requires parties to develop
                          national inventories of anthropogenic GHG emissions and GHG removals. 
                       
                 Figure 1 explains how emissions data, emission factors, and emissions inventories
                 for air toxics and criteria pollutants are related and used to make key decisions.  




6
  The Clean Air Act requires EPA to set National Ambient Air Quality Standards for six common air pollutants. 

These commonly found air pollutants (also known as “criteria pollutants”) are ozone, particulate matter, carbon 

monoxide, nitrogen oxides, sulfur dioxide, and lead.

7
  States may use NEI data to develop their SIP proposals; however, SIP proposals must undergo public review and 

comment before they are approved.




13-P-0161                                                                                                       4
Figure 1: Types of criteria and air toxics emissions data used to make decisions
                                                         NEI

EPA’s NEI is intended to include air emissions from all states and from all sources (large and small stationary
sources, and mobile sources). It represents an estimate of all air emissions of criteria and toxic air pollutants in
the United States. Although the NEI contains some directly-measured emissions, such as those measured by
continuous emission monitors at large stationary sources, the NEI data for oil and gas production is based largely
on estimates calculated from emission factors.

Uses/Decisions: EPA uses the NEI for air quality modeling conducted in support of regulations; assessing risks to
the public; measuring air emission trends over time; informing development of SIPs; and developing residual risk
and air toxics rules. EPA uses this information to make key decisions on risks and air quality impacts.




                                                 Emission factors

An emission factor is a tool used to estimate air pollutant emissions from a normally operating process or activity.
An emission factor relates the quantity of pollutants released to the atmosphere from a process to a specific
activity associated with generating those emissions. For most application purposes, users typically assume that
an emission factor represents the long-term average emissions for all facilities in a particular source category.
                                                a                                                                 b
EPA’s emission factors are compiled in AP-42 and the Web Factor Information Retrieval System (WebFIRE).

Uses/Decisions: Emission factors are used to estimate average emissions across a large number of sources,
such as in the development of an emissions inventory. Emission factors are also frequently used to make
applicability determinations, and permitting and enforcement decisions. Emission factors may also be used to
conduct analyses for development of regulations.




                                Measured and source-specific emissions data

These data are obtained through the measurement of actual emissions coming from a source or process, and
can be thought of as “empirical” data. These emissions data are measured using standardized measurement
methods that quantify emissions from a source. This includes using established test methods, but also includes
data collected using newer direct and remote emission measurement techniques.

Uses/Decisions: This type of data is used to develop emission factors, as well as to improve existing emission
factors. Measured and source-specific data can also be submitted directly to NEI in addition to being used for
emission factors. If this type of data exists for a given source or process, it can be used to make permitting and
enforcement decisions and to conduct analyses for development of regulations.

Source: OIG-developed figure.

a
  AP-42, Compilation of Air Pollutant Emission Factors, is EPA’s primary compilation of emission factor information. It 

contains emission factors and process information for more than 200 air pollution source categories.

b
  WebFIRE is EPA’s online repository of recommended emission factors. 



                   Complexity of Oil and Gas Emissions

                   The complexity of oil and gas emissions presents a challenge to estimating air
                   emissions as well as overseeing the industry. Examples of this complexity include:



13-P-0161                                                                                                              5
                        	 Different geological formations can produce different types of fluids and
                           gases with different air emissions. For example, coal bed methane wells
                           produce less VOCs than conventional gas wells. VOC and hazardous air
                           pollutants (HAP) content of gas and condensate can also vary from
                           location to location, according to EPA.

                        	 Emissions can differ among wells in the same formation and in the same
                           field. Well production and pressure decline over time. Flow rates of wells
                           next to each other can vary at different times.

                        	 The level of emissions may also vary by season and temperature. For
                           example, colder conditions require heaters, which produce additional
                           emissions.

                        	 Well pressure also impacts the effectiveness of control options. If there is
                           not enough pressure to push the emissions out of the ground, efforts to
                           capture the emissions might be technically infeasible.

                    Clean Air Act Regulations That Affect Oil and Gas Production

                    A number of Clean Air Act (CAA) regulations affect the oil and gas industry.
                    These include EPA’s newly revised New Source Performance Standards (NSPS)
                    and National Emission Standards for Hazardous Air Pollutants (NESHAP) rules
                    for the oil and gas sector issued in April 2012.8 The previous NSPS and NESHAP
                    rules focused primarily on larger oil and gas facilities, such as gas processing
                    plants. The revised rules will regulate emissions from several upstream sources
                    and processes not covered by the previous rules, most notably well completions.
                    For well completions, the rules will address new wells that are hydraulically
                    fractured and existing wells as they are refractured. See appendix D for more
                    details on the final revised 2012 NSPS and NESHAP rules. Other existing rules
                    that affect engines used in oil and gas production include the NSPS rule for
                    Stationary Spark Ignition Internal Combustion Engines and the NESHAP rule for
                    Reciprocating Internal Combustion Engines.

                    With respect to GHGs, EPA issued the Mandatory Reporting of Greenhouse
                    Gases rule9 (“GHG Reporting Rule”) in October 2009 that requires facilities to
                    report their GHG emissions annually to EPA if they meet a certain emission
                    threshold. Subpart W of the GHG Reporting Rule, issued in November 2010,
                    requires oil and natural gas facilities to track and report equipment leaks and
                    vented emissions for calendar year 2011 and submit that information in
                    September 2012. Starting in 2013, reports must be submitted to EPA by March 31
                    of each year. Subpart W also provides methodologies for calculating emissions
                    from each source type.

8
    40 CFR Parts 60 and 63.
9
    40 CFR Part 98.


13-P-0161                                                                                                 6
               EPA’s Budget and Resources for Oil and Gas Production Activities

               EPA’s Office of Air and Radiation (OAR)—specifically, the Office of Air Quality
               Planning and Standards (OAQPS) and Office of Atmospheric Programs (OAP)—
               and the Office of Research and Development (ORD) are responsible for collecting
               emissions data and developing methods to measure and/or estimate emissions.

               EPA does not maintain precise budget data on its expenditures by industry sector.
               However, Agency officials were able to estimate the resources devoted to oil and
               gas production activities in most instances. From fiscal year (FY) 2008 to FY 2011,
               ORD allocated about $455,000 in extramural funds and about 0.5 full-time
               equivalents (FTEs) per year to oil and gas production-related research. In that same
               period, OAQPS allocated an estimated $2.7 million to oil and gas production
               activities. From FYs 2010 to 2011, OAQPS had about 5 FTEs per year devoted to
               oil and gas activities such as rulemaking development. OAP staff were not able to
               break out specific budget figures and FTEs used directly to address oil and gas
               production emissions, although they did provide higher level budget information
               for the broader programs that include oil and gas production activities.

Noteworthy Achievements
               ORD and OAR Collaborative Research: ORD and OAQPS as well as their
               EPA regional and state partners conducted field studies to develop new methods
               to measure fugitive and other emissions from well production pads and
               evaporative ponds. These studies focused on remote emission assessment
               techniques that allow for offsite data collection.

               Emissions Inventory System: EPA has invested in the new Emissions Inventory
               System to improve the data collection process and enhance the quality of the NEI.
               According to OAQPS staff, the system allowed EPA to compile the NEI using
               fewer resources for the actual collection of data. Therefore, more resources were
               allocated to ensuring data quality. The Emissions Inventory System helps to
               ensure consistency by comparing state-reported emissions data to emissions data
               in the system, as well as comparing state data year to year.

               Emission Factors: In response to the OIG’s 2006 report10, EPA has developed
               the Electronic Reporting Tool (ERT), incorporated electronic reporting
               requirements into a number of rulemakings, and created an electronic data portal
               for sources to submit data electronically directly to EPA. EPA has also issued a
               draft report on “Recommended Procedures for Development of Emissions Factors
               and Use of the WebFIRE Emissions Factor Database” (December 17, 2010).

               Natural Gas STAR: Initiated in 1993, EPA’s Natural Gas STAR program is a
               voluntary program that partners with oil and gas companies to reduce methane

10
  EPA OIG Report No. 06-P-00017, EPA Can Improve Emissions Factors Development and Management, March
22, 2006. 


13-P-0161                                                                                              7
            emissions through the development of technologies and best practices. The
            program offers its partners guidance and technical assistance. According to EPA,
            the program currently has 130 partners and has eliminated a total of 994 billion
            cubic feet of methane since its inception. In 2010, EPA reported that 73.1 billion
            cubic feet of methane reductions came from oil and gas production sector partners
            (78 percent of total methane emission reductions).

            Greenhouse Gas Reporting Program: EPA issued the GHG Reporting Rule on
            October 30, 2009. It requires the annual reporting of greenhouse gas emissions.
            EPA issued the rule requiring the reporting of GHG emissions from the petroleum
            and natural gas industry (Subpart W) on November 30, 2010. According to EPA,
            these data will improve EPA's understanding of the location and magnitude of
            GHG emissions from oil and gas systems across the United States.

Scope and Methodology
            To assess whether EPA has the data needed to make key decisions regarding air
            emissions from oil and gas production activities, we obtained and reviewed
            applicable EPA, Office of Management and Budget, and other federal policies,
            procedures, and guidance documents. We obtained and reviewed EPA, state, and
            local studies pertaining to oil and gas emissions and associated risks, and
            interviewed managers and staff from OAQPS, ORD, OAP, the Office of
            Enforcement and Compliance Assurance, and EPA Regions 3, 6, and 8. We
            discussed and obtained corroborating data and documents about air emissions
            from the oil and gas production sector, including legislative and regulatory
            developments, recent and ongoing research, emission factors, emissions
            inventories, measurement methods and techniques, quality assurance processes,
            budget and resource issues, and permitting, compliance, and enforcement (at both
            the state and federal levels).We interviewed managers and staff from four states
            that have experienced recent growth in oil and/or gas production:

                  Wyoming Department of Environmental Quality
                  Texas Commission on Environmental Quality
                  Pennsylvania Department of Environmental Protection
                  Colorado Department of Public Health and Environment

            We also interviewed representatives from the Western Regional Air Partnership
            and Natural Resources Defense Council due to their expertise on oil and gas
            production issues.

            We reviewed EPA’s oil and gas production sector emission factors, as compiled
            in AP-42 and Web Factor and Information Retrieval System (WebFIRE). In
            addition, we analyzed oil and gas production emissions data from the 2008 NEI
            (Version 1.5), provided by OAQPS staff.




13-P-0161                                                                                    8
            We conducted our work from March 2011 to September 2012 in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform our review to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our objectives.

            Prior Reports

            Prior reports by EPA OIG and the U.S. Government Accountability Office (GAO)
            applicable to this evaluation included:
               	 GAO Report No. 11-34: Federal Oil and Gas Leases: Opportunities Exist
                  to Capture Vented and Flared Natural Gas, Which Would Increase
                  Royalty Payments and Reduce Greenhouse Gases, October 29, 2010
               	 GAO Report No. 09-872: Energy Policy Act of 2005: Greater Clarity
                  Needed to Address Concerns with Categorical Exclusions for Oil and Gas
                  Development under Section 390 of the Act, September 16, 2009
                EPA OIG Report No. 08-P-0206, Voluntary Greenhouse Gas Reduction
                  Programs Have Limited Potential, July 23, 2008
                EPA OIG Report No. 08-P-0020, Improvements in Air Toxics Emissions
                  Data Needed to Conduct Residual Risk Assessments, October 31, 2007
               	 EPA OIG Report No. 07-B-00002, Assessment of EPA’s Projected
                  Pollutant Reductions Resulting from Enforcement Actions and Settlements,
                  July 24, 2007
               	 EPA OIG Report No. 06-P-00017, EPA Can Improve Emissions Factors
                  Development and Management, March 22, 2006
               	 EPA OIG Report No. 04-P-00021, EPA Needs to Improve Tracking of
                  National Petroleum Refinery Compliance Program Progress and Impacts,
                  June 22, 2004




13-P-0161                                                                                   9
                                              Chapter 2

Limited Air Emissions Data for Oil and Gas Production

   Hampers EPA’s Ability to Assess Airborne Risks 

                   EPA has limited directly measured air emissions data on criteria and air toxic
                   pollutants for several important oil and gas production processes and sources. This
                   type of data is used to develop emission factors, which EPA and states rely on to
                   estimate air emissions. However, about half of EPA’s WebFIRE emission factors
                   for oil and gas production are rated poor, below average, or are unrated. EPA has
                   also developed a nationwide inventory of air emissions, NEI, from large and small
                   stationary sources, and mobile sources for criteria and some air toxic pollutants, but
                   the data in the NEI are also incomplete. EPA acknowledges that better data for
                   several key processes are needed. However, we found that EPA does not have a
                   comprehensive strategy for improving air emissions data for the oil and gas
                   production sector. The Agency has not addressed these issues because it did not
                   anticipate the tremendous growth of the sector and had allocated limited resources
                   to it. Limited data from direct measurements, poor quality emission factors, and
                   incomplete NEI data hamper EPA’s ability to assess air quality impacts from oil
                   and gas production activities. With limited data, human health risks are uncertain,
                   states may design incorrect or ineffective emission control strategies, and EPA’s
                   decisions about regulating industry may be misinformed.

EPA Has Limited Air Emissions Data for Several Key Oil and Gas 

Production Processes and Sources 

                    EPA has limited directly measured air emissions data for criteria and air toxic
                    pollutants for several key oil and gas production processes and sources. For
                    example, OAQPS lacked data on well completions and evaporative ponds in
                    conducting analyses for the proposed revised 2011 NSPS and NESHAP rules.11
                    Due to the lack of directly measured VOC data, OAQPS staff used GHG
                    inventory estimates of methane emissions to derive estimates of VOC emissions
                    coming from well completions. In addition, EPA stated in the proposed rules that
                    it could not regulate evaporative ponds (fugitive emissions) due to a lack of
                    emissions data. The Agency solicited comments on methods for calculating such
                    emissions. Appendix E provides descriptions of key oil and gas production
                    sources and processes.  

                    EPA Lacks Direct Measurement Methods But Studies Are Being
                    Conducted

                    EPA has not developed methods for directly measuring criteria and air toxic
                    pollutant emissions from certain oil and gas production sources and processes
11
     EPA issued final regulations in 2012. See 40 CFR Parts 60 and 63.


13-P-0161                                                                                             10
                 such as well completions. However, the Agency has developed methods for
                 measuring methane, one of the GHGs, from oil and gas sources. ORD staff stated
                 that direct measurement methods are the most accurate measurement techniques.
                 The disadvantages of onsite direct measurement techniques include the need for
                 access to the well production site, the expense of testing, and the potential risk of
                 injury (e.g., needing to climb to the top of a tank to measure emissions).
                 Nonetheless, according to ORD staff, they are in the process of developing direct
                 measurement methods for measuring air emissions from oil and gas production
                 sources for criteria and air toxic pollutants.
      
                 Due to the disadvantages of onsite direct measurement methods for some sources,
                 EPA has conducted and continues to conduct studies to develop remote sensing
                 and mobile monitoring methods. These methods do not require onsite
                 measurement. ORD staff said that these methods are likely the only way to
                 directly measure emissions from well completions. They may also be useful for
                 measuring fugitive emissions from evaporative ponds. ORD recently developed a
                 measurement method to measure emissions from well production pads. ORD staff
                 plan to submit the remote measurement method to EPA’s Emission Measurement
                 Center in OAQPS for possible inclusion in its list of approved test methods. ORD
                 has also initiated a study of condensate and produced water tanks, and is
                 considering a study in collaboration with EPA Region 3 to understand the impacts
                 of oil and gas emissions in the Marcellus Shale region. While progress continues,
                 more research is needed to develop additional methods for several oil and gas
                 production processes.
                  
                 EPA Has Allocated Limited Resources to Oil and Gas Production
                 Research and Studies
                 According to ORD staff, EPA did not previously place a priority on oil and gas
                 production research, but EPA’s priority for oil and gas research is rising. Over the
                 last 4 fiscal years, ORD’s National Risk Management Research Lab12 and OAR’s
                 OAQPS have averaged less than one full FTE per year to oil and gas production-
                 related studies. From FY 2008 to 2011, ORD allocated about $455,000 total in
                 extramural funds to oil and gas production-related research. OAQPS allocated
                 about $540,000 for measurements and methods development. ORD has relied on
                 research funding from Regional Applied Research Effort grants and funding from
                 other offices, such as OAQPS.

                 EPA Lacks a Coordinated, Cross-Office Strategy for Improving the
                 Collection of Data
                 EPA does not have a coordinated, cross-office strategy or national approach to
                 improve the collection of air emissions data for oil and gas production. According
                 to OAP staff, OAR has a GHG data collection strategy in the GHG Reporting

12
  This laboratory is ORD’s laboratory for risk management research. Its mission is to advance scientific and
engineering solutions to manage current and future environmental risk.


13-P-0161                                                                                                      11
                   Rule (Subpart W).13 While Subpart W requires oil and gas production facilities to
                   report GHG data by September 2012, in our view, this is one part of an effort to
                   address GHGs from this industry sector. It is not a coordinated, cross-office
                   strategy for improving the collection of all types of air emissions data for oil and
                   gas production sources commensurate with recent and projected growth in this
                   industry sector.

                   According to an ORD manager, ORD has made a concerted effort to identify the
                   highest priorities for inventory data development. ORD’s Air, Climate, and
                   Energy Research Action Plan includes multiple projects that support the research
                   needs of EPA offices, including those involved with the oil and gas sector. The
                   plan provides information about the need for collaboration with partners.
                   According to EPA, the research plan was developed with considerable input from
                   Agency offices that address oil and gas production issues, but it was developed to
                   guide only ORD’s efforts. Further, the plan does not specifically address oil and
                   gas data limitations. While a step in the right direction, the plan is not a cross-
                   office strategy or national approach to improving the collection of air emissions
                   data for oil and gas production sources.

                   In April 2012, EPA and the Departments of Energy and the Interior signed a
                   Memorandum of Agreement to form a multi-agency working group. It will
                   address the high priority research questions associated with the development of
                   unconventional shale gas and tight oil resources. One component of this effort is
                   developing a cross-agency, formal, multi-year research plan that will, among
                   other things, identify gaps in available data and appropriate activities to address
                   them.

EPA Lacks Data to Develop and Improve Emission Factors Impacting
Key Decisions for Many Oil and Gas Processes
                   Historically, EPA has not received directly measured data, also called source
                   testing data, from state and local agencies to develop and improve its emission
                   factors because states and local agencies were not required to provide the data to
                   EPA. For that reason, EPA has focused on developing the Electronic Reporting
                   Tool (ERT), which provides an electronic format for facilities to send their direct
                   measurement results directly to EPA. OAQPS staff stated that their focus has
                   been on development of the ERT tool and not independently developing new or
                   improving existing emission factors.

                   EPA needs to develop new WebFIRE emission factors for certain key oil and gas
                   production processes/sources and pollutants that lack them. Many of EPA’s
                   existing oil and gas production emission factors are of questionable quality
                   because they are based on limited and/or low quality data. Even so, states and
                   facilities use EPA emission factors to develop emissions inventories and make

13
     40 CFR §§ 98.230 to 98.238.


13-P-0161                                                                                            12
            key permitting and enforcement decisions. Emission factors are used because they
            are the least expensive method for estimating emissions. Developing new
            emission factors and improving existing ones would help ensure that EPA regions
            and the states have accurate emission estimates to complete these tasks.

            EPA Has Not Developed New Emission Factors
            Due to lack of state data and EPA’s focus on ERT, the Agency has not developed
            new WebFIRE emission factors for certain oil and gas production processes and
            sources. For example, we did not identify any emission factors for evaporative
            ponds. According to a 2009 Department of Energy report, in semiarid regions,
            hot, dry air moving from a land surface will result in high evaporation rates for
            small evaporation ponds. We also did not identify emission factors for criteria and
            air toxic pollutants for produced water tanks, well completions, or pneumatic
            devices. Table 3 lists the key oil and gas production processes and sources that
            have and do not have EPA emission factors/models to estimate emissions.




13-P-0161                                                                                   13
Table 3: Key emission sources with EPA emission factors or models (or EPA-approved models)
                                                               Fine
                                                           particulate
                                                              matter
                                                           (PM2.5) and
                                                            inhalable
                                                             coarse
      Emission       Nitrogen                     Carbon   particulate           Sulfur                      GHGsa
      sources         oxides         VOC         monoxide matter (PM10)          oxides       Air toxics
                                                                                                       b
    Internal            Yes          Yes            Yes             Yes            Yes           Yes           Yes
    combustion
    engines

    Process             Yes          Yes            Yes         PM10 – Yes         Yes           Yesb          Yes
    heaters                                                     PM2.5 – No

    Flares and          No           Yes             No             No             No             No           No
    enclosed
    combustors

    Dehydrators         No        Yes-Model          No             No             No              Yes-Model
                                    GRI-                                                          GRI-GLYCalc
                                   GLYCalc

    Tanks               Not       Yes-Models        Not            Not            Not            Yes-         Yes-
    (condensate,     applicable    E&P TANK      applicable     applicable     applicable       Models        Model
    storage, oil,                    GRI-                                                     E&P TANK         E&P
    etc.)                           HAPCalc                                                      GRI-         TANK
                                  EPA’s TANK                                                   HAPCalc
                                                                                                EPA’s
                                                                                                TANK

    Amine               No        Yes- Model         No             No             Yes             Yes-Model
    treaters                      AMINECalc                                                        AMINECalc

    Evaporative         Not           No            Not            Not             Not            No           No
    ponds            applicable                  applicable     applicable      applicable
                                        c
    Produced            Not          No             Not            Not            Not             Noc          Yes
    water tanks      applicable                  applicable     applicable     applicable

    Well                Not          Noc            Not            Not            Not             Noc          Yes
    completions      applicable                  applicable     applicable     applicable

    Pneumatic           Not          Noc            Not            Not            Not             Noc          Yes
    devices          applicable                  applicable     applicable     applicable

Source: OIG-developed table from AP-42, WebFIRE, and interviews with OAR staff.

a
  Emission factor exists for methane, carbon dioxide, and/or nitrous oxide.

b
  Emission factors exist for at least some air toxics. 

c
  OAP staff stated that if a methane emission factor exists for a process and the gas constituents of the well are 

known, then VOCs and air toxics can be calculated. 


                    We identified 495 existing emission factors for oil and gas production in
                    WebFIRE. Of the 495 emission factors, 75 percent (371) are for internal
                    combustion engines and 22 percent (111) are for process heaters (including steam
                    generators). Except for GHGs, we did not identify any existing emission factors
                    for produced water tanks, well completions, or pneumatic devices. EPA needs to


13-P-0161                                                                                                              14
                  develop new emission factors for other sources besides internal combustion
                  engines and process heaters.

                  Many Existing Emission Factors Are of Low or Unknown Quality

                  Many of EPA’s existing WebFIRE oil and gas production emission factors are of
                  questionable quality because they are based on limited and/or low quality data.
                  Each emission factor in WebFIRE receives a ranking of ‘A’ (Excellent) through
                  ‘E’ (Poor), or is unrated by OAQPS. A key aspect of the ranking of the emission
                  factors is the amount of data upon which an emission factor is based.14 An
                  emission factor is ranked higher if it is based on a larger amount of high quality
                  data and is ranked lower if it is based on a smaller amount of lesser quality data.
                  As shown in table 4, about half of EPA’s emission factors for oil and gas
                  production in WebFIRE (248 of 495) are rated below average or poor, or are
                  unrated. This means they are based on limited or insufficient data.
                  Table 4: Ratings for EPA’s oil and gas production emission factors
                   Emission factor rating No. of emission factors        Percentage of emission
                                                                                  factors
                    A – Excellent                       86                          17%
                    B – Good                            29                            6
                    C – Average                        132                           27
                    D – Below Average                   53                           11
                    E – Poor                            83                           17
                    U – Unrated                        112                           23
                                                                                        a
                    Total                              495                         101%
                  Source: OIG-developed table from EPA’s WebFIRE database.
                  a
                   Total not equal to 100 percent due to rounding.

                  Although half of the oil and gas production emission factors we reviewed were
                  rated below average or were unrated, this is slightly better than what we reported
                  for all emission factors in the 2006 EPA OIG report, EPA Can Improve Emissions
                  Factors Management and Development. In that report, we noted that the percentage
                  of all AP-42 emission factors15 rated below average or poor was 62 percent.

                  State agencies and facility owners/operators may use lower ranking emission
                  factors in decision-making when no other data on the source are available. For
                  example, one state agency recommends that the facilities in its state calculate
                  emissions for their permits using 18 different emission factors that are rated below
                  average or lower. Emission factors are the least expensive method of estimating
                  emissions.



14
   EPA uses other criteria in the rating process. For example, EPA also looks at how well the data represents the 

industry. 

15
   The OIG reported on all AP-42 emission factors in its 2006 report, not just oil and gas production emission

factors. 



13-P-0161                                                                                                             15
                     EPA Has Developed a Tool to Collect Data, But Gaps Remain
                     EPA has developed the ERT for criteria and air toxic pollutants, which provides
                     an electronic format for facilities to document source test results. EPA’s
                     WebFIRE database will be able to store the data that has been submitted
                     electronically. According to the revised 2012 NSPS and NESHAP rules for the oil
                     and gas sector, the overall quality of the existing and newly developed emission
                     factors will greatly improve by supplementing the pool of emissions test data and
                     by ensuring that the factors are more representative of current industry operational
                     procedures.

                     Starting in January 2012, facility owners or operators subject to certain EPA
                     regulations, including those of oil and gas operations, are required to submit
                     selected source test data directly to EPA. EPA is developing amendments to
                     existing rules to require similar electronic reporting requirements for rules codified
                     in 40 CFR Parts 60, 63, and 65. It is important to note that the requirement to report
                     data electronically only applies to data collected with a test method supported by
                     the ERT and only if the regulation requires its collection. For example, the final
                     2012 NSPS and NESHAP rules for the oil and gas sector require electronic
                     reporting of specific source tests. While the ERT may improve EPA’s data from
                     some sources, the rules do not require source tests for all processes and sources
                     covered by the rules, such as combustors. Therefore, the results of any source tests
                     performed on combustors are not required to be reported electronically to EPA.
                     Thus, EPA will likely not receive this data and the rule will not contribute to the
                     improvement of emission factors for these sources.

                     Developing New Emission Factors and Improving Existing Emission
                     Factors Will Lead to Better Information to Make Key Decisions

                     Developing new emission factors and improving existing ones could significantly
                     enhance the information that EPA and the states have to make key decisions. For
                     example, in the technical support document for Subpart W of the GHG Reporting
                     Rule16, EPA revised the methane emission factors for well completions and
                     workovers. For unconventional well completions, the emission factor went from
                     0.02 metric tons/year to 177 metric tons/year (8,849 times greater). For
                     unconventional well workovers, the emission factor increased from 0.05 metric
                     tons/year to 177 metric tons/year (3,539 times greater).17

Oil and Gas Production Emissions Data in EPA’s NEI Are Incomplete
                     Emissions data for oil and gas production in EPA’s NEI are incomplete,
                     particularly for smaller sources and for air toxics. The Air Emissions Reporting



16
     40 CFR §§ 98.230 to 98.238. 

17
      The 2006 GHG Inventory increase was also due in part to the revision in the liquids unloading emission factor. 



13-P-0161                                                                                                            16
                  Requirements (AERR)18 rule requires states to report emissions of criteria
                  pollutants and ozone precursors (e.g., VOCs) from a variety of sources to EPA’s
                  NEI. These sources include large stationary sources called point sources,19 small
                  stationary sources called nonpoint sources, and mobile sources. States are not
                  required to report air toxic emissions, although some do voluntarily. Emissions
                  from point sources are reported on a facility-specific basis. Emissions from
                  nonpoint sources can be based on estimates and aggregated by industry sector at
                  the county level. Examples of point sources in the oil and gas sector are gas
                  processing plants and compressor stations. Examples of nonpoint sources include
                  smaller, upstream sources and processes, such as well production pads.

                  Nonpoint sources are significant sources of emissions in the oil and gas production
                  industry. However, few states submitted data on these sources to EPA for inclusion
                  in the most recent 2008 NEI. While 35 states submitted oil and gas production
                  emissions data for point sources to the 2008 NEI, only 9 submitted emissions data
                  for nonpoint sources.20 Meanwhile, emissions from these smaller sources accounted
                  for the majority of total oil and gas emissions in the 2008 NEI. For example,
                  nonpoint sources accounted for 98 percent of all oil and gas VOC emissions in the
                  2008 NEI, while larger point sources accounted for only 2 percent. Due to the
                  cumulatively high emissions from this collection of smaller sources and the limited
                  reporting of emissions from these sources, the NEI likely underestimates actual
                  criteria pollutant emissions from oil and gas production sources.

                  Data for air toxic emissions in the NEI are also incomplete. Of the 35 states that
                  submitted oil and gas production emissions data to the 2008 EPA NEI, 12 states
                  did not report air toxic data for point sources and 32 states did not report air toxic
                  data for nonpoint sources. Given the lack of air toxic data in the NEI, particularly
                  for nonpoint sources, these emissions are also most likely understated in the NEI.
                  As stated above, the AERR does not require states to report air toxic data to the
                  NEI.

                  EPA Efforts to Fill Data Gaps for Specific Decision-Making Purposes

                  EPA has adjusted existing NEI data to fill significant gaps for specific decision-
                  making purposes. For example, in conducting its 2011 regulatory impact
                  assessment for the proposed revised NSPS and NESHAP rules, EPA found that

18
   The AERR replaced the requirements of the Consolidated Emissions Reporting Rule, which was in effect at the
time the data for the 2008 NEI were collected. The Consolidated Emission Reporting Rule also required states to
report emissions of criteria pollutants and ozone precursors (e.g., VOCs) from both large stationary sources, small
stationary sources, and mobile sources to EPA for purposes of developing the NEI.
19
   Point sources are stationary sources that have the potential to emit criteria pollutants, VOCs, and ammonia at
levels at or above specific thresholds. Nonpoint sources are stationary sources that do not meet the emission
thresholds for point sources.
20
   Some states may report some nonpoint source data emissions as point source data emissions. This is especially
true in states that have their own reporting requirements and regulations for oil and gas facilities that are more
stringent than EPA’s regulations. In these cases, emissions that would otherwise be included in the nonpoint
emissions inventory are actually included in the point source inventory.


13-P-0161                                                                                                             17
            emissions data for well completions were significantly undercounted in the 2008
            NEI. EPA found that the 2008 NEI contained only about 21,000 tons of VOC
            emissions from well completions. In contrast, EPA estimated as part of its
            engineering analysis for the 2011 proposed NSPS and NESHAP rulemaking that
            well completions emit about 510,000 tons of VOCs a year. This amount was
            nearly 25 times as much as had previously been contained in EPA’s 2008 NEI. As
            a result, EPA added about 480,000 tons of VOC emissions to the 2008 NEI in
            order to develop a baseline for VOC emissions.

            In another example, while conducting a residual risk assessment of facilities
            covered by the existing NESHAP rules for oil and gas, EPA found that 75 percent
            of the facilities did not have emissions data for key air toxics, which include
            benzene, toluene, ethylbenzene, and xylenes, in the NEI. In the absence of these
            data, EPA developed air toxic estimates by applying certain percentage ratios to
            facilities’ reported VOC emissions. EPA then assigned these surrogate emission
            estimates to the facilities with missing air toxic data.

            In addition, EPA has augmented existing oil and gas data in the NEI for air
            modeling purposes. Specifically, OAQPS staff incorporated emissions data from
            the 2006 Western Regional Air Partnership inventory in its most recent modeling
            platform to support regulatory analyses. OAQPS staff told us that EPA hired a
            contractor to identify and obtain all available oil and gas emissions data that are
            not already in the NEI. However, EPA staff said the only data the contractor
            identified were the Western Regional Air Partnership data.

            Multiple Factors Contribute to Oil and Gas Data Gaps in the NEI
            The following factors contribute to the oil and gas emissions data gaps in the NEI:

               	 EPA has not developed default emission estimates for oil and gas
                  nonpoint sources. For the 2008 NEI, EPA developed default emission
                  estimates for 76 types of nonpoint sources for selected industry sectors
                  that could be used in the absence of state-reported data. However, the oil
                  and gas production sector was not among those 76 categories. Thus,
                  nonpoint emissions for oil and gas remained “0” in the NEI if states did
                  not submit data. According to OAQPS staff, EPA has not developed a
                  default emission methodology for the oil and gas production sector
                  because the sector was not as large prior to 2008. OAQPS staff also stated
                  that developing such a methodology in time for the 2008 NEI was not
                  feasible because (1) resources had been diverted to the Agency’s transition
                  to the Emissions Inventory System for the 2008 NEI, (2) the industry grew
                  significantly during this time, and (3) there was a lack of emission factors
                  data on new exploration methods.
                   According to OAQPS staff, EPA has formed a national workgroup of oil and
                   gas sector experts to develop default emissions estimates. The workgroup has
                   written a white paper outlining an approach for creating a national default


13-P-0161                                                                                    18
                           method that would allow for variability by basin. According to EPA, OAQPS
                           has allocated $85,000 to develop default emissions estimates from the
                           nonpoint upstream oil and gas sector. This tool will have the capability to
                           estimate 2011 and future year emissions on the county level for criteria
                           pollutants, HAP, ammonia, and GHGs. According to OAQPS staff, states can
                           either accept the default estimates developed by EPA or can submit their own
                           emissions data to the NEI.

                      	 EPA has not ensured state submission of nonpoint source oil and gas
                         data as required by AERR. As discussed above, only nine states
                         submitted emissions data for nonpoint oil and gas sources. OAQPS staff
                         stated that they have not reviewed states’ submissions from a compliance
                         standpoint. Instead, OAQPS staff tries to influence states to submit data so
                         that the emissions inventory is complete.

                      	 Some states are not collecting emissions data from smaller (i.e.,
                         nonpoint) oil and gas production facilities due to a lack of permitting
                         requirements. According to OAQPS staff, some states do not have data to
                         submit to the NEI because they do not have regulations in place to require
                         small facilities to be permitted. In states where these smaller sources are
                         unpermitted and/or unregulated, states are not likely to obtain emissions
                         data from these sources to submit to the NEI.

                      	 Developing a robust inventory that would cover these numerous
                           small, unregulated sources is resource intensive. This is particularly
                           true for emission sources and processes that do not have established
                           emission factors or other estimation techniques that the states can use to
                           estimate emissions. 

                  Incomplete NEI Data Affect EPA’s Ability to Assess Risks and Air
                  Quality Impacts from Oil and Gas Production Emissions

                  EPA uses the NEI to assess risks from air toxics through its National Air
                  Toxics Assessment (NATA) and to model air quality in support of regulatory
                  impact assessments for National Ambient Air Quality Standards (NAAQS)21 rules
                  and revisions. Without complete emissions data, EPA cannot accurately assess
                  risks and air quality impacts associated with oil and gas production emissions.

                  The NATA provides broad estimates of cancer risk and other serious health
                  effects resulting from air toxics. Modeling conducted for the NATA relies
                  primarily on air toxic emissions data in the NEI. If air toxic emissions data for oil
                  and gas activities are not included in the NEI, potential risks from these emissions
                  will not be identified in the NATA.

21
  NAAQS establish maximum permissible concentrations of criteria pollutants in the air. The ozone NAAQS is of
concern for the oil and gas production industry because oil and gas production activities emit significant amounts of
VOCs, which contribute to the formation of ozone.


13-P-0161                                                                                                          19
             In order to demonstrate progress towards NAAQS attainment, or show maintenance
             of the NAAQS once attained, states need to conduct air quality modeling pertaining
             to the NAAQS. This is particularly true for ozone, as oil and gas production
             activities emit significant amounts of VOCs and NOx that contribute to ozone
             formation. For example, a staff person responsible for ozone modeling from a state
             air control agency said his agency has to rely on NEI data from other states in
             conducting ozone modeling to represent the transport of ozone-forming pollutants.
             Incomplete emissions data, such as the gaps described above for nonpoint sources,
             will lead to modeling results that underestimate the air quality impacts from oil and
             gas production activities.  

Limited Data Could Affect Decision-Making Impacting Human Health
and the Environment
            Directly measured data, including source test data, provide EPA with the most
            accurate information to develop new emission factors and improve existing
            emission factors. Limited data and limited emission factors impact the
            development of SIPs. The CAA requires states that fail to meet NAAQS to develop
            SIPs that describe how the state will attain and maintain the NAAQS. EPA then
            evaluates SIPs to determine whether states have proper control strategies in place
            to achieve attainment. To properly develop and evaluate SIPs, EPA and states need
            emissions data and emission estimates to understand air emissions from the oil and
            gas production sector. In areas with high oil and gas production activity, emissions
            from this industry may significantly affect ozone levels and attainment of the ozone
            NAAQS. Without adequate data and emission estimates for oil and gas emissions,
            states may rely on industry sectors other than oil and gas production to obtain
            emission reductions. EPA may then approve SIPs that place an inequitable burden
            on industries other than oil and gas production. Limited data could affect decision-
            making impacting human health and the environment.

Conclusions
             Recent and projected growth in the oil and gas production sector has underscored
             the need for EPA to gain a better understanding of emissions and potential risks
             from this industry sector. Harmful pollutants emitted from this industry include
             air toxics such as benzene, toluene, ethylbenzene, and xylene; criteria pollutants
             and ozone precursors such as NOx and VOCs; and greenhouse gases such as
             methane. These pollutants can result in serious health impacts such as cancer,
             respiratory disease, aggravation of respiratory illnesses, and premature death.
             However, EPA has limited directly-measured air emissions data on criteria and
             toxic air pollutants for several important oil and gas production processes. This
             limited data, coupled with poor quality and insufficient emission factors and
             incomplete NEI data, hamper EPA’s ability to assess air quality impacts from
             selected oil and gas production activities.



13-P-0161                                                                                     20
            EPA is currently engaging in efforts to collect additional emissions data, but these
            studies have been limited in scope and future funding is uncertain. The Agency
            does not have a comprehensive, cross-office strategy for prioritizing air emissions
            data needs and developing action plans to address those needs. In our view, a
            comprehensive strategy would help EPA better manage the collection of needed
            data on air emissions from the oil and gas production sector.

Recommendations
            We recommend that the Assistant Administrator for Air and Radiation and the
            Assistant Administrator for Research and Development:

               1. 	 Develop and implement a joint comprehensive cross-office strategy for
                    improving data for the oil and gas production sector. The strategy should:

                       a. 	 Identify gaps and limitations in (1) existing oil and gas air
                            emissions data, (2) emission factors, and (3) measurement
                            techniques, including direct and remote measurement methods.

                       b. 	 Prioritize what data limitations are most significant and develop
                            specific action plans for how EPA will address these gaps and
                            limitations.

            We recommend that the Assistant Administrator for Air and Radiation:

               2. 	 Prioritize and update existing oil and gas production emission factors that are
                    in greatest need of improvement and develop emission factors for key oil and
                    gas production processes that do not currently have emission factors.

               3. 	 Ensure that the data in NEI are complete by:

                       a. 	 Monitoring the states’ submission of oil and gas emissions data for
                            point sources and nonpoint sources pursuant to the requirements of
                            the AERR and assisting states in complying with the rule.

                       b. 	 Completing the development of a method for calculating default
                            nonpoint emission estimates to enter into the NEI when states do
                            not submit nonpoint data for oil and gas production.

                       c. 	 Developing default calculation guidance for states to use to
                            estimate oil and gas nonpoint source emissions.




13-P-0161                                                                                       21
Agency Comments and OIG Evaluation

            The Agency concurred with our recommendations 1, 2, and 3b to develop a
            comprehensive strategy, prioritize and develop emission factors, and develop a
            default method for calculating nonpoint emissions, respectively. The Agency did
            not provide milestone dates or identify the responsible party for implementing the
            planned corrective actions for these recommendations and, as such, they are
            considered unresolved pending receipt of this information. The OIG and the
            Agency have not agreed on a course of action to remedy and/or address
            recommendations 3a and 3c. These recommendations are unresolved pending the
            Agency’s final report response. Appendix A contains the Agency’s response to our
            draft report. Appendix B contains our detailed evaluation of that response.




13-P-0161                                                                                  22
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                                   POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                       Planned
    Rec.    Page                                                                                                      Completion   Claimed    Agreed-To
    No.      No.                           Subject                           Status1         Action Official             Date      Amount      Amount

     1       21     Develop and implement a joint comprehensive                         Assistant Administrator for
                    cross-office strategy for improving data for the oil                  Air and Radiation and
                    and gas production sector. The strategy should:                     Assistant Administrator for
                      a. Identify gaps and limitations in (1) existing oil     U       Research and Development
                         and gas air emissions data, (2) emission
                         factors, and (3) measurement techniques,
                         including direct and remote measurement
                         methods.
                      b. Prioritize what data limitations are most             U
                         significant and develop specific action plans
                         for how EPA will address these gaps and
                         limitations.

     2       21     Prioritize and update existing oil and gas                 U       Assistant Administrator for
                    production emission factors that are in greatest                       Air and Radiation
                    need of improvement and develop new emission
                    factors for key oil and gas production processes
                    that do not currently have emission factors.

     3       21     Ensure that the data in NEI are complete by:                       Assistant Administrator for
                      a. Monitoring the states’ submission of oil and                      Air and Radiation
                                                                               U
                         gas emissions data for point sources and
                         nonpoint sources pursuant to the
                         requirements of the AERR and assisting
                         states in complying with the rule.
                      b. Completing the development of a method for            U
                         calculating default nonpoint emission
                         estimates to enter into the NEI when states
                         do not submit nonpoint data for oil and gas
                         production.
                      c. Developing default calculation guidance for            U
                         states to use to estimate oil and gas nonpoint
                         source emissions.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-P-0161                                                                                                                                            23
                                                                                 Appendix A

                    Agency Comments on Draft Report

                             November 16, 2012

MEMORANDUM

SUBJECT:      Response to Draft Report, EPA Needs to Improve Air Emissions Data for the Oil
              and Natural Gas Production Sector, Project No. OPE-FY11-0010

FROM:         Gina McCarthy
              Assistant Administrator
              Office of Air and Radiation (OAR)

              Lek G. Kadeli
              Deputy Assistant Administrator
              Office of Research and Development (ORD)

TO:           Carolyn Copper
              Assistant Inspector General for Program Evaluation
              Office of Inspector General (OIG)

Thank you for the opportunity to comment on the OIG draft report, EPA Needs to Improve Air
Emissions Data for the Oil and Natural Gas Production Sector, Project No. OPE-FY11-0010,
dated September 26, 2012. This review was initiated to determine whether OAR and ORD could
improve air emissions data necessary for making key decisions associated with oil and natural
gas production processes, including the need for regulations, and enforcement and permitting
decisions.

We appreciate the OIG’s efforts to gain a thorough understanding of the complexity of the oil
and natural gas production sector and the many emission sources and pollutants involved. The
OIG review makes several recommendations regarding ways in which OAR and ORD can
improve the EPA’s body of knowledge on air emissions from this sector. These
recommendations, along with our responses, are presented below. Additional comments
pertaining to the draft report text are attached in a separate document.

Recommendation 1: We recommend that the Assistant Administrator for Air and Radiation
and the Assistant Administrator for Research and Development:

1. Develop and implement a joint comprehensive cross-office strategy for improving data for the
oil and gas production sector. The strategy should:
        a. Identify gaps and limitations in
               (1) existing oil and gas air emissions data;
               (2) emission factors; and
               (3) measurement techniques, including direct and remote measurement methods.


13-P-0161                                                                                       24
       b.	 Prioritize what data limitations are most significant and develop specific action plans
           for how EPA will address these gaps and limitations.
Response: We concur with this recommendation and will take the necessary steps to develop a
cross-office strategy. Implementing such a strategy will be contingent upon the availability of
future resources.

We have identified emissions information for oil and natural gas production as a critical need
and, as a result, have several ongoing activities that informally address the key OIG
recommendations for a data improvement strategy. For example, OAR, ORD, and several
Regional Offices have been working together over the past few years to develop methods and
collect data on emissions from oil and natural gas production operations. In addition, EPA’s
Greenhouse Gas (GHG) Reporting Program was developed in coordination with offices across
EPA and will provide comprehensive GHG emissions data for oil and natural gas systems across
the U.S. Further, EPA is partnering with other federal agencies, specifically the Department of
Energy and the Department of Interior, under a 2013 initiative focusing on unconventional oil
and natural gas development. This collaborative effort is planned to provide emissions, exposure
and effects information related to the growing use of hydraulic fracturing to increase domestic
yields of natural gas and, more recently, oil. We can use these efforts as the basis for a formal,
written cross-office strategy.

With regard to a formal cross-office strategy, ORD and OAR will build on work already under
way or completed to develop and implement a strategy for improving data. The offices will
establish a dedicated cross-office team to:
    1) describe in detail gaps and limitations identified in ongoing agency research planning
        activities;
    2) leverage existing data sources;
    3) prioritize the data limitations; and
    4) propose actions to address data gaps and limitations, beginning with those considered as
        highest priority.
Examples of some areas for which we have already identified a need for new or improved
emissions information include:
   1) liquid unloading of gas wells (to be updated in the 2013 U.S. GHG Inventory);
   2) hydraulically fractured oil wells;
   3) hybrid (oil and natural gas) wells; and
   4) evaporation ponds and pits.
In addition to our own efforts, we are following work being done by a number of outside
organizations and entities to identify and collect data that will be useful in better characterizing
emissions and will further inform our own studies in this sector. These entities include regional
planning organizations, states, industry, environmental groups and academic institutions. For
example, we are tracking studies being carried out by the Central Regional Air Planning
Association (CENRAP), the Western Regional Air Partnership (WRAP), and several states that
may provide potentially valuable data on this sector.

  See Appendix B, Note 1, for OIG Response


13-P-0161                                                                                          25
Recommendation 2: We recommend that the Assistant Administrator for Air and Radiation:

2. Prioritize and update existing oil and gas production emission factors that are in greatest
need of improvement and develop emission factors for key oil and gas production processes that
do not currently have emission factors.

Response: We agree that emission factors should be reviewed for oil and natural gas production
processes and revised as appropriate. We are developing an e-reporting program to expedite the
development of emission factors for all industrial source categories. We have made substantial
progress and have begun incorporating into our regulations requirements that affected sources
submit certain data to us electronically. This includes a requirement to report electronically the
results of emission tests when they are conducted on certain emission points covered in the
recently promulgated oil and natural gas rules.

We recognize the recent interest and new data available (with more data coming) on several key
sources in the natural gas sector, particularly natural gas production. The Inventory of U.S.
Greenhouse Gas Emissions and Sinks annual development process results in updates to
emissions factors on an ongoing basis and we will continue to improve our estimates as new data
become available.

  See Appendix B, Note 2, for OIG Response


Recommendation 3: We recommend that the Assistant Administrator for Air and Radiation:

3. Ensure that the data in National Emissions Inventory (NEI) is complete by:
       a.	 ensuring that states submit point source and nonpoint source data pursuant to the Air
           Emissions Reporting Requirements (AERR) rule;
       b.	 completing the development of a method for calculating default nonpoint emission
           estimates to enter into the NEI when states do not submit nonpoint data for oil and
           gas production; and
       c.	 developing default calculation guidance for states to use to estimate oil and gas
           nonpoint source emissions.
Response (3a): We concur that having a complete NEI is in the best interest of the agency and
the public; however, we are concerned that this recommendation (as worded) suggests that states
are not complying with the AERR rule reporting requirements. Our experience is that states
comply with the AERR rule and send emission data to EPA when it is available to them. Data
from the oil and gas sector is becoming increasingly available, and we expect the states will
submit more data to us. Limited state resources and the lack of data availability have contributed
to past data gaps. However, the emissions tool described in our response to Recommendation 3b
below will largely resolve emissions data gaps for this sector. Changing the word “ensure” in this
recommendation to “encourage and assist” would greatly improve this recommendation.

  See Appendix B, Note 3, for OIG Response




13-P-0161                                                                                       26
Response (3b): We concur and continue to pursue the development of a tool for calculating
nonpoint emissions for oil and natural gas production. We intend to have a draft tool available
during early 2013 for estimation of emissions in the 2011 NEI. We will continue to enhance the
tool, as resources allow, for future NEI versions. Annual oil and natural gas activity updates to
the tool are possible and would require purchase of an industry database for $30K per year.
Additional improvements require additional resources.

  See Appendix B, Note 4, for OIG Response


Response (3c): We agree that states need more information on estimating emissions from this
sector, but we disagree that a “guidance document” will have additional benefit over the tool
described in our response to recommendation 3b. Producing a separate guidance document will
create an additional resource burden on EPA to keep the tool and guidance document in sync.
These resources can be better used updating the tool. If out of sync, two separate sources of
disparate information will add confusion, not clarity. Therefore, we believe that the tool
described in our response to Recommendation 3b and the associated documentation are sufficient
for meeting the needs of this recommendation. This recommendation could be improved by
acknowledging that the tool with appropriate documentation can effectively serve as sufficient
guidance.

  See Appendix B, Note 5, for OIG Response


Again, we appreciate the efforts undertaken by the OIG to conduct a thorough review and to
provide recommendations for improvement of the EPA’s information on air emissions from the
oil and natural gas production sector. Please feel free to contact us with any questions.

Attachment




13-P-0161                                                                                       27
                                                                                   Appendix B
                   OIG Evaluation of Agency Comments

 We appreciate the Agency’s comments and its recognition of our efforts to gain a thorough
understanding of the complexity of the oil and natural gas production sector. Our comments
concerning the draft report recommendations are below. We also received a number of technical
comments from the Agency and made changes to the final report as appropriate.

Note 1- Response to Recommendation 1:

The Agency concurred with our recommendation to develop and implement a joint
comprehensive cross-office strategy for improving data for the oil and gas production sector.
However, it stated that such implementation would be contingent upon the availability of future
resources. We understand that resources are limited, but our report reflects the need for the
Agency to make the oil and gas production sector a priority. Indeed, the Agency states that it has
identified emissions information for this industry as a “critical need” and has several efforts
underway to informally address our recommendations. These efforts include a cross-office work
group on developing methods to measure emissions, the Greenhouse Gas Reporting Program,
and interagency collaboration on unconventional oil and natural gas development. The Agency
states that it commits to establishing a cross-office team to undertake tasks that will build the
foundation for a comprehensive strategy. We agree with these planned actions and recommend
that the Agency provide the timeframes for completing these tasks, as well as the party/office
responsible for the corresponding recommendations, in its response to the OIG final report. We
consider this recommendation unresolved pending receipt of this information.

Note 2 – Response to Recommendation 2:

EPA agreed that emission factors should be reviewed for oil and natural gas production
processes and revised as appropriate. The Agency clarified in the exit conference that it
concurred with recommendation 2. In our view, the recent and projected growth in this industry
sector establishes the need to prioritize emissions factor improvements for this sector over other
stable or dwindling industry sectors. Additionally, the Agency discusses the development of an
e-reporting program to support emission factor development. As stated in the OIG draft report,
the requirement to report data electronically only applies to data collected with a test method
supported by the ERT and only if the regulation requires its collection. Therefore, certain sources
that may need new or updated emission factors are not currently addressed by the ERT. In the
Agency’s final response, it will need to provide the estimated completion dates and the
responsible party/office. We consider this recommendation unresolved pending receipt of this
information.

Note 3 – Response to Recommendation 3a:

The Agency disagreed with the language the OIG uses in recommendation 3a, “Ensuring that
states submit point source and nonpoint source data pursuant to the AERR.” As stated in the OIG
draft report, only nine states submitted emissions data for nonpoint oil and gas sources. We do



13-P-0161                                                                                       28
not agree with the Agency’s recommendation to change the word “ensuring” to “encourage and
assist.” We believe that the Agency should monitor states’ submissions of the data pursuant to
the AERR and assist states in complying with the rule. We revised this recommendation
accordingly. The Agency should further discuss how they will use the tool described in their
response to recommendation 3b to help states submit the required data. We consider this
recommendation unresolved.

Note 4: Response to Recommendation 3b:

The Agency concurred with recommendation 3b and provided details of the corrective actions it
has ongoing and planned. EPA is developing a method for calculating default nonpoint emission
estimates for the NEI and intends to have a draft tool ready in early 2013. Specifically, EPA
noted that it plans to have a draft tool available during 2013 for estimation of emissions in the
2011 NEI, and that it will continue to enhance the tool, as resources allow, for future NEI
versions. We accept the Agency’s planned corrective actions in response to this
recommendation. In the Agency’s final response, the Agency will need to provide the OIG with
estimated completion dates and the responsible party/office for its planned actions. We consider
this recommendation unresolved pending receipt of this information.

Note 5: Response to Recommendation 3c:

The Agency disagrees that states need a separate guidance document aside from the tool and
associated documents from recommendation 3b. In our view, it is pivotal that state users have the
guidance needed to implement the tool created in response to recommendation 3b. When we
review the Agency’s final response for recommendation 3b, we will assess whether the
associated documentation planned for the tool described in the Agency’s response to
recommendation 3b meets the intent of recommendation 3c. We consider this recommendation
unresolved.




13-P-0161                                                                                      29
                                                                                            Appendix C

            Growth in Oil and Gas Production Industry
Natural gas production has increased greatly over the past two decades. Much of this growth is
due to recent development of natural gas from shale formations.

The growth in natural gas production has been most pronounced in areas of the United States
covered by EPA Regions 3, 6, and 8. Region 3 includes the recently developed high-growth area
of the Marcellus Shale. Region 6 encompasses numerous high-producing areas in Texas,
Louisiana, Oklahoma, and New Mexico, including the Barnett Shale and Haynesville Shale.
High-producing areas covered by Region 8 include the Uinta Basin in Utah and the Denver-
Julesberg Basin in Colorado. Figure C-1 shows the number of producing gas wells in 1992 and
2010 by EPA region. As shown, the number of wells increased in all regions, with the largest
increases in Regions 3, 6, and 8.

              Figure C-1: Number of producing natural gas wells by EPA Region, 1992–2010
                                    250,000



                                    200,000
                  Number of wells




                                    150,000


                                                                                               1992
                                    100,000                                                    2010


                                     50,000



                                         0




              Source: OIG-developed graph based on data from the EIA.

              Note: The states covered by each EPA region are as follows: Region 2: New Jersey and New York; 

              Region 3: Delaware, Washington DC, Maryland, Pennsylvania, Virginia, and West Virginia; 

              Region 4: Alabama, Georgia, Florida, Kentucky, Mississippi, North Carolina, South Carolina, and 

              Tennessee; Region 5: Illinois, Indiana, Michigan, Minnesota, Ohio, and Wisconsin; Region 6: 

              Arkansas, Louisiana, New Mexico, Oklahoma, and Texas; Region 7: Iowa, Kansas, Missouri, and 

              Nebraska; Region 8: Colorado, Montana, North Dakota, South Dakota, Utah, and Wyoming; 

              Region 9: Arizona, California, Hawaii, and Nevada; Region 10: Alaska, Idaho, Oregon, and

              Washington. There are no gas-producing states in Region 1, which includes Connecticut,

              Massachusetts, Maine, New Hampshire, Rhode Island, and Vermont.





13-P-0161                                                                                                  30
EIA projects that production of both natural gas and crude oil will increase steadily in the future.
Figure C-2 shows the projected growth for crude oil production while Figure C-3 shows the
projected growth in natural gas production from 2009 to 2025.
               Figure C-2: Estimated increase in crude oil production and supply, 2009–2025



                                              3.9
                 Million barrels/day



                                              3.7


                                              3.5                                                                                                                                        Crude Oil
                                                                                                                                                                                         Production &
                                                                                                                                                                                         Supply
                                              3.3


                                              3.1


                                              2.9
                                                    2009
                                                           2010
                                                                  2011
                                                                         2012
                                                                                2013
                                                                                       2014
                                                                                               2015
                                                                                                       2016
                                                                                                               2017
                                                                                                                       2018
                                                                                                                               2019
                                                                                                                                       2020
                                                                                                                                                2021
                                                                                                                                                         2022
                                                                                                                                                                  2023
                                                                                                                                                                         2024
                                                                                                                                                                                2025
                                                                                                  Year
               Source: OIG-developed graph based on EIA data.



               Figure C-3: Estimated increase in gas production and supply, 2009–2025


                                              22

                                             21.5

                                              21
                       Trillion cubic feet




                                             20.5

                                              20

                                             19.5                                                                                                                                          Natural Gas
                                              19                                                                                                                                           Production &
                                                                                                                                                                                           Supply
                                             18.5

                                              18

                                             17.5

                                              17
                                                    2009
                                                           2010
                                                                  2011
                                                                         2012
                                                                                2013
                                                                                        2014
                                                                                                2015
                                                                                                        2016
                                                                                                                2017
                                                                                                                        2018
                                                                                                                                2019
                                                                                                                                         2020
                                                                                                                                                  2021
                                                                                                                                                           2022
                                                                                                                                                                    2023
                                                                                                                                                                           2024
                                                                                                                                                                                  2025




                                                                                                          Year
               Source: OIG-developed graph based on EIA data.




13-P-0161                                                                                                                                                                                                 31
                                                                                   Appendix D

        Final Revised 2012 NSPS and NESHAP Rules
On April 17, 2012, EPA issued revisions to the existing NSPS and NESHAPs rules for the oil
and gas industry. EPA’s review and revision of the existing rules were conducted in response to
a lawsuit filed against the Agency for failing to meet certain provisions of the CAA that require
periodic review of NSPS and NESHAP rules. The new revisions will require emission controls
and reductions for several types of oil and gas sources and processes that are not currently
controlled by the existing rules. These include the following:

NSPS Revisions

 Well Completions at New Hydraulically Fractured Gas Wells (VOC reductions): The new
  rules include a two-phased approach for controlling VOCs from these completions:

         During Phase 1 (before January 1, 2015), operators must reduce VOC emissions by
          (1) flaring using a combustion device, or (2) capturing the gas using green
          completions with a combustion device.
       	 During Phase 2 (starting January 1, 2015), operators are required to conduct green
          completions at all new hydraulically fracked wells, except for new exploratory and
          delineation wells, and hydraulically fractured low-pressure wells. For those wells,
          combustion of the gas is required, unless combustion would cause a safety hazard or
          is prohibited by state or local regulation.

 Well Completions at Refractured Gas Wells (VOC reductions): Operators may reduce
  emissions through flaring until January 15, 2015. After that date, they must use green
  completions.
 Pneumatic Devices (VOC reductions): For pneumatic devices at the well site and at gathering
  and boosting stations, the rule sets a gas bleed limit of 6 standard cubic feet per hour.

 Centrifugal Compressors (VOC reductions): The new revised rule requires a 95 percent
  reduction in VOC emissions from compressors with wet seal systems, which can be
  accomplished through flaring or by routing captured gas back to a compressor suction or fuel
  system.

 Reciprocating Compressors (VOC reductions): The new revised rule requires the replacement
  of the rod packing (1) after every 26,000 hours of operation, or (2) every 36 months.

 Storage Vessels (VOC reductions): New storage tanks with VOC emissions of 6 tons a year
  or more must reduce VOC emissions by at least 95 percent, which will generally be
  accomplished by routing emissions to a combustion device.

 Leak Detection and Repair at Gas Processing Plants (VOC reductions): The new revised
  rule includes strengthened leak detection and repair at processing plants.


13-P-0161                                                                                       32
 Sweetening Units at Gas Processing Plants (SO2 reductions): Sweetening units with a sulfur
  production rate of at least five long tons per day are required to reduce SO2 emissions by
  99.9 percent.

NESHAP Revisions

 Glycol Dehydrators (HAP reductions): Emissions limits for benzene, toluene, ethylbenzene,
  and xylene will apply to existing and new smaller dehydrators.

The NSPS revisions will generally apply only to new sources in the industry, while the NESHAP
revisions will apply to all new and existing sources that meet the emissions thresholds for major
sources of Hazardous Air Pollutant emissions.22 EPA estimates that the new revised NSPS and
NESHAP rules will result in reductions of 190,000 tons of VOCs, 12,000 tons of Hazardous Air
Pollutants, and 1 million tons per year of methane.




22
  “Major sources” are sources that emit or have the potential to emit 10 tons per year of a single HAP, or 25 tons
per year or more of any combination of Hazardous Air Pollutants.



13-P-0161                                                                                                            33
                                                                                            Appendix E

         Descriptions of Equipment and Processes for
                    Oil and Gas Production
 Equipment or process                         Description of equipment or process
 Compressor                Any machine that raises the pressure of gas or carbon dioxide by drawing
                           in low pressure gas or carbon dioxide and discharging significantly higher
                           pressure gas or carbon dioxide.
 Condensate                Hydrocarbon and other liquids, including both water and hydrocarbon
                           liquids, separated from gas that condense due to changes in the
                           temperature, pressure, or both, and remain liquid at storage conditions.
 Dehydrator                A device in which a liquid absorbent (including desiccant, ethylene glycol,
                           diethylene glycol, or triethylene glycol) directly contacts a gas stream to
                           absorb water vapor.
 Glycol dehydration unit   A device in which a liquid glycol absorbent directly contacts a gas stream
                           and absorbs water in a contact tower or absorption column (absorber).
 Horizontal drilling       The process of drilling and completing, for production, a well that begins
                           as a vertical or inclined linear bore which extends from the surface to a
                           subsurface location just above the target oil or gas reservoir. The well
                           then bears off on an arc to intersect the reservoir at the "entry point," and,
                           thereafter, continues at a near-horizontal attitude tangent to the arc, to
                           substantially or entirely remain within the reservoir until the desired
                           bottom hole location is reached.
 Hydraulic fracturing      The process of directing pressurized fluids containing any combination of
 (also referred to as      water, proppant, and any added chemicals to penetrate tight formations,
 “fracking”)               such as shale or coal formations, that subsequently require high rate,
                           extended flowback to expel fracture fluids and solids during completions.
 Internal combustion       The combustion of a fuel that occurs with an oxidizer (usually air) in a
                           combustion chamber. In an internal combustion engine, the expansion of
                           the high-temperature and high-pressure gases produced by combustion
                           applies direct force to a component of the engine, such as pistons, turbine
                           blades, or a nozzle. This force moves the component over a distance,
                           generating useful mechanical energy. Internal combustion equipment may
                           include gasoline and diesel industrial engines, natural gas-fired
                           reciprocating engines, and gas turbines.
 Pneumatic Devices         High-bleed pneumatic devices – Automated, continuous bleed flow
                           control devices powered by pressurized gas and used for maintaining a
                           process condition such as liquid level, pressure, and temperature. Part of
                           the gas power stream that is regulated by the process condition flows to a
                           valve actuator controller where it vents continuously (bleeds) to the
                           atmosphere at a rate in excess of 6 standard cubic feet per hour.

                           Intermittent bleed pneumatic devices – Automated flow control devices
                           powered by pressurized gas and used for maintaining a process condition
                           such as liquid level, pressure, and temperature. These are snap-acting or
                           throttling devices that discharge the full volume of the actuator
                           intermittently when control action is necessary, but does not bleed
                           continuously.

                           Low-bleed pneumatic devices – Automated flow control devices powered
                           by pressurized gas and used for maintaining a process condition such as
                           liquid level, pressure, and temperature. Part of the gas power stream that
                           is regulated by the process condition flows to a valve actuator controller


13-P-0161                                                                                                   34
                             where it vents continuously (bleeds) to the atmosphere at a rate equal to
                             or less than 6 standard cubic feet per hour.
 Produced water              Water that is extracted from the earth from an oil or gas production well,
                             or that is separated from crude oil, condensate, or gas after extraction.
 Produced water              Ponds usually with a large surface area that contain produced water,
 evaporative ponds           which is allowed to evaporate from the surface.
 Production casing           The deepest section of casing in a well. Well casing consists of a series of
                             metal tubes installed in a freshly-drilled hole. Casing strengthens the
                             sides of the well hole, ensures that no oil or gas seeps out of the well hole
                             as it is brought to the surface, and keeps other fluids or gases from
                             seeping into the formation through the well. Production casing is installed
                             last. This is the casing that provides a conduit from the surface of the well
                             to the petroleum-producing formation.
 Production well             A hole drilled in the earth from which crude oil, condensate, or field gas is
                             extracted.
 Pump                        A device used to raise pressure, drive, or increase flow of liquid streams
                             in closed or open conduits.
 Separator                   A vessel in which streams of liquid of multiple phases are gravity-
                             separated into individual streams of single phase.
 Sour gas                    Gas that contains significant concentrations of hydrogen sulfide and/or
                             carbon dioxide that exceed the concentrations specified for commercially
                             saleable natural gas delivered from transmission and distribution
                             pipelines.
 Sweet gas                   Gas with low concentrations of hydrogen sulfide and/or carbon dioxide
                             that does not require (or has already had) acid gas treatment to meet
                             pipeline corrosion-prevention specifications for transmission and
                             distribution.
 Well completions            The process that allows for the flow of petroleum or natural gas from
                             newly-drilled wells to expel drilling and reservoir fluids and test the
                             reservoir flow characteristics. These steps may vent produced gas to the
                             atmosphere via an open pit or tank. Well completion also involves
                             connecting the well bore to the reservoir, which may include treating the
                             formation or installing tubing, packer(s), or lifting equipment. These steps
                             do not significantly vent natural gas to the atmosphere. This process may
                             also include high-rate flowback of injected gas, water, oil, and proppant
                             used to fracture or re-fracture and prop open new fractures in existing
                             lower permeable gas reservoirs. These steps may vent large quantities of
                             produced gas to the atmosphere.
Sources: OIG developed table using GHG Technical Support Document; 1993 Department of Energy Information
Administration report entitled Drilling Sideways – A Review of Horizontal Well Technology and its Domestic
Application; 2009 Argonne National Laboratory Study entitled Produced Water Volumes and Management Practices
in the United States; final revised NSPS and NESHAP rules for the oil and gas industry issued April 2012; and
NaturalGas.org (production casing definition).




13-P-0161                                                                                                    35
                                                                            Appendix F
                                        Distribution
Office of the Administrator
Assistant Administrator for Air and Radiation
Assistant Administrator for Research and Development
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Air and Radiation
Audit Follow-Up Coordinator, Office of Research and Development




13-P-0161                                                                            36
